         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Office of Air and Radiation
       and Office of Water
       Can Further Limit Use of
       Level-of-Effort Contracts
       Report No. 2006-P-00015

       March 14, 2006
Report Contributors:	            Charles Randall
                                 Andres Calderon
                                 Stephen Burbank
                                 Patricia Brooks Taylor




Abbreviations

EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
LOE          Level-of-Effort
OAM          Office of Acquisition Management
OAR          Office of Air and Radiation
OIG          Office of Inspector General
OMB          Office of Management and Budget
OW           Office of Water
                        U.S. Environmental Protection Agency                                             2006-P-00015

                                                                                                        March 14, 2006

                        Office of Inspector General


                        At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review             EPA Office of Air and Radiation and Office of Water 

                                   Can Further Limit Use of Level-of-Effort Contracts 

We sought to determine
whether the acquisition
                                    What We Found
planning process for the
Environmental Protection
                                   OAR and OW need to improve efforts to limit the use of LOE contracts. By
Agency’s (EPA’s) Office of
                                   maximizing available opportunities to use other than LOE contracts, OAR and
Air and Radiation (OAR) and
                                   OW can reduce EPA’s financial risk, increase the possibility for greater
Office or Water (OW) used
                                   competition and cost savings, and improve the Agency’s ability to increase the use
knowledge gained from prior
                                   of performance-based contracts. Federal regulations indicate such cost-type
acquisitions to limit the use of
                                   contracts are the least preferred method for acquiring services.
cost reimbursable Level-of-
Effort (LOE) contracts. EPA
                                   Based on the active list of OAR and OW contracts as of June 15, 2004, we
could reduce its risk and
                                   determined that 83 of those 169 contracts were LOE contracts. Significantly,
potentially save money by
                                   $288 million of the $383 in cumulative obligations for those 169 contracts, or
using other contract types.
                                   75 percent, were for LOE contracts:
Background
                                                    Cumulative Obligations (millions)
LOE contracts are cost-plus-          Office        All Contracts       LOE Contracts
fixed-fee contracts that span          OAR               $ 235              $ 174
multiple years. Generally,             OW                  148                114
                                      Totals             $ 383              $ 288
they are not performance
based – where the contractor
is compensated for results         In a judgmental sample of 14 cost-plus-fixed-fee contracts awarded for OAR and
rather than effort or process.     OW, totaling approximately $105 million, we found that 61 of the 217 work
LOE contracts require the          assignments, or 28 percent, could have been contracted out as other than LOE
contractor to provide only         procurements. These involve such projects as planning meetings and conferences
required hours over a specified    and maintaining computer systems.
time, with no final product or
deliverable required.               What We Recommend

                                   We recommend that OAR and OW require their program offices to reduce
For further information,           reliance on cost reimbursable LOE contracts by improving acquisition planning
contact our Office of
                                   and increasing efforts to identify opportunities for performance-based acquisitions.
Congressional and Public
Liaison at (202) 566-2391.         We also recommend that the Office of Administration and Resources
                                   Management, which is responsible for contracts, work with OAR and OW to
To view the full report,           better define contract requirements to make greater use of performance-based
click on the following link:       contracts, and better enable contract officers to share best practices. The Agency
www.epa.gov/oig/reports/2006/
                                   generally agreed with the findings and recommendations in the draft report and
20060314-2006-P-00015.pdf          has identified steps taken and planned to further reduce EPA’s reliance on LOE
                                   contracts and increase performance-based service acquisitions.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




                                         March 14, 2006

MEMORANDUM

SUBJECT: 	             EPA Office of Air and Radiation and Office of Water
                       Can Further Limit Use of Level-of-Effort Contracts
                       Report No. 2006-P-00015


FROM:                  Carl A. Jannetti, Director for Contract Audits
                       Office of Inspector General

TO:        	           Luis A. Luna, Assistant Administrator
                       Office of Administration and Resources Management

                       Bill Wehrum, Acting Assistant Administrator
                       Office of Air and Radiation

                       Benjamin H. Grumbles, Assistant Administrator
                       Office of Water


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

Your response to the draft report adequately addresses the findings and recommendations in this
report. Therefore, we will close this report upon issuance and no further response to this report
is necessary. We have no objection to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (215) 814-5800
or Stephen Burbank at (617) 918-1489.
                                 Table of Contents 

At a Glance


Chapters
   1   Introduction ...........................................................................................................      1


               Purpose ..........................................................................................................    1         

               Background ....................................................................................................       1         

               Scope and Methodology.................................................................................                2

               Prior Reports ..................................................................................................      3

               Internal Control Structure ...............................................................................            3

               Compliance with Laws and Regulations.........................................................                         3


   2   OAR and OW Need to Further Limit Future Use of LOE Contracts ..................                                               4


               Opportunities Exist to Use Other than LOE Contracts ...................................                               4

               OAR and OW Continue to Prefer LOE Contracts...........................................                                6

               Potential Benefits Exist for Moving Away from LOE Contracts ......................                                    7

               Recommendations .........................................................................................             8         

               Agency Comments and OIG Evaluation.........................................................                           8




Appendices

   A   Excerpts from Federal Acquisition Regulation .................................................                               10 


   B   Contracts and Work Assignments Reviewed and Results of Review..............                                                  11 


   C   Work Assignments Identified that Could Have Been Other Than LOE ............                                                 12     


   D   Agency Response ................................................................................................             14     


   E   Distribution ...........................................................................................................     17     

                                Chapter 1
                                 Introduction
Purpose
          We sought to determine whether the acquisition planning process for the
          Environmental Protection Agency’s (EPA’s) Office of Air and Radiation
          (OAR) and Office of Water (OW) used knowledge gained from prior
          acquisitions to limit the use of cost reimbursable Level-of-Effort (LOE)
          contracts. EPA could reduce its risk and potentially save money by
          using other types of contracts.

Background
          Contracts play a major role in supporting the regulatory requirements of the Clean
          Air Act and Clean Water Act, as well as Agency initiatives to improve human
          health and the environment. In 2004, contracts accounted for 36 percent and
          30 percent of the operating budgets for OAR and OW, respectively. These
          program offices use contracts to provide regulatory and programmatic support for
          a variety of professional engineering, technical, and management services.

          LOE contracts are cost reimbursable contracts that span multiple years (base
          period and option years) and are predominantly awarded to large vendors.
          Generally, the contracts are not performance based – where the contractor is
          compensated for results rather than effort or process. LOE contracts describe the
          scope of work in general terms and obligate a contractor to devote a specified
          level of effort for a stated time period. LOE contracts have the contractor provide
          only required hours over a specified time period with no final product or
          deliverable required.

          The Federal Acquisition Regulation (FAR) identifies cost-type contracts that are
          not performance based as the least preferred method for acquiring services. FAR
          states that such contracts can be used for research or preliminary exploration but
          cautions against using them after experience from prior acquisitions provides a
          basis for firmer pricing. FAR urges greater use of performance-based, fixed-price
          contracts, particularly for follow-on acquisitions. FAR notes that if a cost-type
          contract is to be used, one that identifies a deliverable is preferred over an LOE
          contract. The use of other than LOE contracts is also reinforced by the Federal
          Acquisition Streamlining Act of 1994, which makes Multiple Award Contracts the
          preferred method (through this method, agencies award multiple contracts
          covering the same scope of work and, as specific needs are identified, can
          compete the orders among the multiple contract holders). Use of LOE contracts is
          further discouraged in the EPA Contracts Management Manual, which states that
          the contract should be either (1) performance-based, or (2) a "hybrid," combining


                                           1

         both cost reimbursement and fixed-price type provisions. Appendix A contains
         further details on FAR requirements.

         EPA’s Office of Acquisition Management (OAM), within the Office of
         Administration and Resources Management, provides the policies, procedures,
         and operational support for OAR and OW procurements, from contract planning
         through close out. OAR and OW initiate the contracts, identify the tasks or work
         assignments to be accomplished, and monitor the tasks through completion.

         In a September 7, 2004 memorandum, Increasing the Use of Performance-Based
         Acquisition, the Office of Management and Budget (OMB) set a Government-
         wide goal of 40 percent of eligible contract dollars to be placed as performance-
         based in Fiscal Year 2005. Procurements where at least 50 percent of the
         acquisition is performance-based can be counted toward this goal.

Scope and Methodology
         We performed this audit from September 2004 to September 2005 in accordance
         with Government Auditing Standards, issued by the Comptroller General of the
         United States. Our audit included visits to OAR and OW offices in Washington,
         DC, and OAM’s Headquarters Procurement Operations Division in Washington
         and the Cincinnati Procurement Operations Division, Cincinnati, Ohio.

         We interviewed OAR and OW personnel responsible for review and approval of
         contract actions, and OAM contracting personnel, to determine how contract type
         is selected and managed. We specifically interviewed program staff from three
         OAR and two OW offices, as shown in Table 1.1. Combined, those offices are
         responsible for almost 80 percent of OAR’s and OW’s cost-type contracts.

         Table 1.1: Offices from Which Staff Were Interviewed
          OAR           Office of Atmospheric Programs
                        Office of Transportation and Air Quality
                        Office of Air Quality Planning and Standards
          OW            Office of Science and Technology
                        Office of Ground Water and Drinking Water


         We reviewed pertinent documentation, including the relevant sections of the FAR,
         EPA’s Contracts Management Manual, Office of Federal Procurement Policy’s
         Best Practices, and OMB’s Program Assessment Rating Tool reports for Air and
         Water programs.

         To identify the universe of contracts, we used OAM’s Active Contract Listing as
         of June 15, 2004. As of that date, OAR and OW had a total of 169 contracts.
         Included in this amount were 93 cost reimbursable contracts, of which 83 were
         LOE contracts. Details, including cumulative obligations, are in Table 1.2.




                                              2

          Table 1.2: Breakdown of Contracts Sampled
                              All Contracts               Cost Reimbursable                    LOE
                                       Cumulative                   Cumulative                  Cumulative
                          No. of       Obligations       No. of     Obligations     No. of      Obligations
             Office      Contracts      (millions)      Contracts    (millions)    Contracts     (millions)
           OAR              111            $235               59        $180             54          $174
           OW                58             148               34         128             29           114
             Totals         169            $383               93        $308             83          $288
           % of All
                                                          55%           80%             49%          75%
           Contracts


          To identify opportunities to use other than LOE contracts, we selected a
          judgmental sample of 14 cost-plus-fixed-fee contracts awarded for OAR and OW
          with total obligations of about $105 million. See Table 1.3 for details; specific
          contracts reviewed are further identified in Appendix B. To examine Statements
          of Work for planned acquisitions, we queried OAM Web sites.

          Table 1.3: Sample of OAR and OW LOE Contracts
                            No. of        Cumulative Obligations        Work Assignments
                Office     Contracts           (millions)                  Reviewed
           OAR                 9                        $70                       144
           OW                  5                         35                        73
            Total             14                       $105                       217


Prior Reports
          We are not aware of any prior reports specifically on the acquisition planning
          process for OAR and OW.

Internal Control Structure
          In planning and performing the audit, we reviewed management controls relating
          to our objectives. These included procedures for initiating contracts and selecting
          contractors. As discussed in Chapter 2, while certain controls were in place,
          OAM and program offices need to work closely to better define contract needs
          and promote the use of other contract types. We examined the Fiscal Years 2003
          and 2004 Federal Managers’ Financial Integrity Act Annual Assurance Letters
          issued to the EPA Administrator for OAR and OW. The letters did not identify
          any contract-related issues for either OAR or OW.

Compliance with Laws and Regulations
          EPA complied with the laws and regulations outlined in the FAR pertaining to its
          efforts in the selection of contract type. However, we have identified
          opportunities for improvement in OAR and OW acquisition planning through
          utilization of knowledge gained from prior acquisitions to refine statements of
          work and/or contract type to limit the use of cost reimbursable (LOE) contracts.
          We discuss needed process improvements in Chapter 2.


                                                  3

                                Chapter 2
            OAR and OW Need to Further Limit
              Future Use of LOE Contracts
          OAR and OW need to improve efforts to limit the use of LOE contracts. By
          maximizing available opportunities to use other than LOE contracts, OAR and
          OW can reduce EPA’s financial risk, increase the possibility for greater
          competition and cost savings, and improve the Agency’s ability to achieve
          OMB’s goals to increase the use of performance-based contracts. Although the
          FAR cautions against the protracted use of cost reimbursable LOE contracts,
          OAR and OW continue to use them. At the time of our audit, these program
          offices had more than $288 million in LOE contracts, and OAR and OW
          acquisition plans indicate the trend to predominately use LOE contracts will
          continue due to convenience.

Opportunities Exist to Use Other than LOE Contracts
          FAR 16 provides guidance on why and how to minimize LOE procurements. As
          noted, a September 2004 OMB memo set a Government-wide goal of 40 percent
          of eligible contract dollars being performance-based in Fiscal Year 2005.
          However, as shown back in Table 1.2, of the $383 million in cumulative
          obligations as of June 2004 for OAR and OW, 80 percent were cost reimbursable
          ($308 million), including $288 million in LOE (75 percent of the $383 million).

          Although OW is making progress, OAM’s statistics indicate that both OAR and
          OW have not met the OMB 40-percent goal. In Fiscal Year 2004, 14.5 percent
          and 24 percent of OAR’s and OW’s eligible contracts, respectively, were
          performance based. Preliminary data for Fiscal Year 2005 show that OAR
          increased to 17 percent and OW to 38 percent. Our audit demonstrated that OAR
          and OW have opportunities available to help meet or exceed the 40-percent goal,
          and it is important that EPA take advantage of these opportunities.

          For our audit, we reviewed 217 of the procurements (work assignments) initiated
          under 14 contracts awarded for OAR and OW. These contracts totaled
          approximately $105 million, and had obligated amounts ranging from about
          $425,000 to $33,000,000. We determined that 61 work assignments, or
          28 percent, could have been other than LOE procurements, as shown in Table 2.1.

          Table 2.1: Work Assignments That Could Have Been Other Than LOE
                            Work Assignments     Work Assignment Opportunity
              Office           Reviewed               for Other than LOE       Percent
           OAR                    144                          52               36%
           OW                      73                           9               12%
             Totals               217                          61               28%



                                           4

We had determined that other than an LOE procurement was appropriate if the
task or service procured met one or more of the following criteria:

•	 Similar to items or tasks previously purchased under the same contract;
•	 Able to stand alone and a deliverable was specified;
•	 Similar to items or tasks acquired elsewhere within EPA using a contract other
   than LOE; or
•	 Available commercially.

By relying on LOE contracts for these procurements, OAR and OW forfeited
opportunities to obtain the benefits associated with other contract types, such as
reducing the Government’s risk and increasing contractor input and innovation.

Many of the 61 work assignments reflected procurements for which the Agency
had considerable historical data, such as the labor hours used and costs paid to
complete similar work. For example, during the past 5 years, OAR issued six
work assignments for contractors to develop and present training courses.
Another contract contained work assignments to task a contractor to plan four
conferences during 3 consecutive years.

Also, each of the 61 work assignments was to procure a specific quantifiable task
that could have been purchased using other than an LOE contract (see
Appendix C for details). For example, work assignments procured tasks and
services such as:

•	   Facilitating classes
•	   Planning meetings and conferences
•	   Maintaining computer systems
•	   Writing brochures
•	   Creating videos
•	   Translating documents

Other EPA offices used a variety of contract types besides LOE to accomplish a
number of these tasks. The historical data within OAR and OW, as well as the
experiences of other EPA offices, demonstrates that OAR and OW have the
opportunity to move away from their reliance on LOE contracts.

In addition to the 61 work assignments discussed above that could have been
procured in their entirety as other than LOE, we identified 86 other work
assignments for which a portion of the tasks could have been separated from the
work assignment and awarded other than LOE. For example, for a $3 million
contract with 28 work assignments, 24 of the assignments contained some tasks
that were ordered repetitively and fairly common to all 24, such as technical and
general support and recordkeeping. The repetitive tasks could have been other
than LOE if procured separately from the non-repetitive tasks.



                                  5

OAR and OW Continue to Prefer LOE Contracts
         OW is making efforts to move away from LOE in future acquisitions by
         identifying some of its future contracts as candidates for performance-based
         acquisitions. However, both OAR and OW contend they need to continue relying
         on cost-plus-fix-fee LOE contracts because they provide the ability to change
         priorities easily and adjust funding. Further, they said LOE contracts better allow
         them to control how the contractor does work and hold one contractor responsible
         for work under a single contract.

         Changes in priorities and funding occur continually throughout the Agency and
         should not inhibit the use of other contract types. This is demonstrated by several
         other EPA offices that deal with the same uncertainties as OAR and OW but do
         not use LOE contracts to the same extent. While LOE contracts provide the
         ability to control how the contractor does its work, it can result in limited
         contractor innovation. Although program offices contend that using a single
         contractor can be convenient, this presupposes that the contractor is the best
         available resource for all tasks.

         Also, OAR and OW said there are inherent uncertainties in defining tasks at the
         time of contract planning. However, uncertainties at the time of award usually
         should be limited to new tasks. As work assignments are completed during
         contract performance, program offices gain the knowledge needed to identify and
         quantify resources for future acquisitions. Currently, EPA awards LOE contracts
         for multiple years. Once contract type is determined and the contract awarded,
         the terms are fixed for the duration of the contract, which can extend up to
         5 years. If the contract awarded permitted flexibility by being structured to allow
         for the use of other than LOE in subsequent years, OAR and OW would be able to
         change the way work is procured as they gained experience and knowledge.

         The Statement of Work outlines the services to be procured and is the primary
         document used to determine contract type. While OAR and OW initiate the
         Statement of Work and identify the type of contract they desire, the contracting
         officers at OAM ultimately determine the contract type, based on the information
         in the Statement of Work. The degree of specificity in the Statement of Work
         strongly impacts contract-type selection. Contracting officers will usually
         recommend using an LOE contract when the Statement of Work is broadly
         worded or vague and it is difficult to determine the specific tasks needed, whether
         the tasks were procured previously, and whether sufficient historical data exists to
         estimate costs. To move away from LOE procurements, OAR and OW need to
         prepare more definitive Statements of Work that more effectively portray the
         actual services needed and the historical knowledge available. When OAM did
         convert LOE contracts to other types, it often was because OAM worked
         collaboratively with OAR or OW to clarify the Statement of Work.




                                          6

Potential Benefits Exist for Moving Away from LOE Contracts
          EPA will need to move toward more innovative contract types to comply with
          OMB’s goal of 40 percent of eligible contracts being performance-based. LOE
          contracts are less conductive to such performance-based contracting. It is
          difficult to write incentives for superior performance and innovative techniques
          into LOE contracts because this contract type procures the contractor’s “best
          effort” and the Agency directs how the contractor accomplishes the work. As a
          result, continued use of LOE contracts inhibits OAR and OW from developing
          performance measures/incentives, and obtaining the benefits that would accrue
          from other contract types. Such benefits can include:

          •	 Increased competition.
          •	 Increased opportunities for small businesses.
          •	 Sharing more of the risk with the contractor.
          •	 The economic “encouragement” for the contractors to provide new and
             innovative/creative solutions and methodologies.
          •	 Reduced administrative costs for EPA programs.

          Our audit results demonstrate that OAR and OW have opportunities available to
          help meet the 40-percent goal. It is important that EPA take advantage of these
          opportunities because OMB’s 40-percent goal may increase in future years.

          EPA’s recent efforts to use “hybrid” contracts (i.e., contracts that combine both
          LOE and fixed-price components) are a step in the right direction. For example,
          we identified three contracting officers in OAM who worked with program
          offices to convert three long-running LOE contracts into hybrid contracts, two of
          which are multiple award. A contracting officer noted the program had
          contracted this work for the past 10 years in the same fashion and that changing
          contract type would foster improved competition and contractor effectiveness.
          OAM officials also told us that they provided training to the programs offices to
          increase the use of other than LOE contracts.

          The work assignments and tasks we identified that could have been other than
          LOE impacted 11 of the 14 contracts reviewed. While all the tasks would not
          necessarily be convertible to other than LOE, there are repetitive work
          assignments and tasks that could be awarded differently. Once contracts are
          awarded as LOE, there are no other options available for assigning the future
          work. Since OAM is responsible for making the final determination on contract
          type, it should take the lead in helping OAR and OW move away from LOE
          contracts by advocating the use of other contract types or forms, such as:

               •   Fixed-Price             •    Multiple Award
               •   Completion Form         •    Indefinite Delivery Indefinite Quantity
               •   Task Order              •    Hybrid



                                           7

         According to OAR and OW acquisition plans, they planned to award 32 LOE
         contracts during Fiscal Years 2005 through 2008. Of that amount, 24 represent
         follow-on efforts for expiring LOE contracts. Given the historical information
         available, at least a portion of the future contracts could be candidates for
         conversion to other than LOE.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation and the
         Assistant Administrator for Water:

          2-1 	 Require program offices to reduce reliance on cost reimbursable LOE
                contracts by making a more concerted effort to identify opportunities
                for performance-based acquisitions. The offices should improve
                acquisition planning by utilizing contract history and experience to
                develop Statements of Work that are more specific, definitive, and
                detailed.

         We recommend that the Assistant Administrator for Administration and
         Resources Management, through the Office of Acquisition Management:

          2-2 	 Instruct contracting officers to adhere to the FAR guidance and work
                collaboratively with OAR and OW to:

                a.	 Improve Statements of Work to better define contract requirements
                    and identify opportunities to limit the use of LOE contracts.

                b.	 Utilize knowledge gained and lessons learned from current and
                    planned OAM procurements to assist OAR and OW to develop
                    new and innovative contracts that provide flexibility and minimize
                    risk, and move the Agency toward its goals for increased small
                    business participation and performance-based acquisition.

          2-3 	 Establish a process to assure that the best practices and
                accomplishments of contracting officers in developing new and
                innovative contracts to service program offices are shared among all
                the contracting officers as a guide and incentive for similar success.

Agency Comments and OIG Evaluation

         OAR and OW agreed that less reliance should be placed on the use of LOE
         contracts, and indicated they will work collaboratively with OAM to make this
         happen. Since 2002, when only 7 percent of the OAR and OW contracts awards
         were Performance-Based Service Acquisitions, considerable progress has been




                                          8

made. In 2005, OW increased Performance-Based Service Acquisition contract
awards to 38 percent and OAR increased such awards to 17 percent.

Nonetheless, both OAR and OW recognize that more progress can and should be
made in this area. These offices indicated they plan to work harder to identify
opportunities for performance-based contracting, in both new acquisition
requirements and future task/delivery orders under already existing contracts.
One valuable tool those two offices and OAM said they will be using is training
through the Federal Acquisition Institute. This training course enables EPA
program and contracting staff to meet with trainers and Performance-Based
Service Acquisition experts to develop performance-based requirements and
statements of work. Both OAR and OW said representatives will be taking this
training during Fiscal Year 2006.

OAM agreed with our recommendations and said it took a major step in the right
direction in October 2005 by issuing a revision to Chapter 37 of the Contracts
Management Manual. This revision acknowledges the FAR preference for
performance-based contracting when acquiring services and mandates that all
EPA contracts eligible for Performance-Based Service Acquisition be awarded as
such. The revised chapter includes guidance to contract and program offices on
establishing Performance-based Work Statements, Statements of Objectives,
Measurable Performance Standards, Quality Assurance Surveillance Plans, and
Incentives. OAM expects this new policy to enable the Agency to significantly
decrease its reliance on LOE contracts over the next several years. OAM said it
will continue to discuss Performance-Based Service Acquisition, increased small
business participation, and the use of new and innovative contracting vehicles
with customers during acquisition planning meetings. OAM said it also has a
network in place to share best practices.

We believe the increased training of program personnel and implementing the
revised Chapter 37 of the Contracts Management Manual should help the
programs move toward less reliance on LOE and more performance-based
contracting. The programs OAM has put in place, as well as those planned,
should provide strong impetus to further reduce the Agency’s reliance on LOE
contracts.

The Agency’s entire response is included as Appendix D




                                9

                                                                                            Appendix A

        Excerpts from Federal Acquisition Regulation

7.103 Agency-head         (2)(r) Ensuring that knowledge gained from prior acquisitions is used to
responsibilities          further refine requirements and acquisition strategies. For services, greater
                          use of performance-based contracting methods and, therefore, fixed-price
                          contracts (see 37.602-5), should occur for follow-on acquisitions.
16.103 Negotiating        (c) … changing circumstances may make a different contract type appropriate
contract type             in later periods than that used at the outset. In particular, contracting officers
                          should avoid protracted use of a cost-reimbursement or time-and-materials
                          contract after experience provides a basis for firmer pricing.
16.306 Cost-plus          (1) The completion form describes the scope of work by stating a definite goal
fixed-fee contracts       or target and specifying an end product. . . .
                          (3) Because of the differences in obligation assumed by the contractor, the
                          completion form is preferred over the term form whenever the work, or
                          specific milestones for the work, can be defined well enough to permit
                          development of estimates within which the contractor can be expected to
                          complete the work.
16.202 Firm-fixed-price   2. A firm-fixed-price contract is suitable for acquiring commercial items or for
contracts                 acquiring other supplies or services on the basis of reasonably definite
                          functional or detailed specifications when the contracting officer can establish
                          fair and reasonable prices at the outset, such as when-
                          (b) There are reasonable price comparisons with prior purchases of the same
                          or similar supplies or services made on a competitive basis or supported by
                          valid cost or pricing data.
16.104 Factors in         (k) Acquisition history. Contractor risk usually decreases as the requirement is
selecting contract type   repetitively acquired. Also, product descriptions or descriptions of services to
                          be performed can be defined more clearly.
37.102 Policy             When acquiring services, including those acquired under supply contracts,
                          agencies must—
                          (1) Use performance-based contracting methods to the maximum extent
                          practicable
                          (2) Use the following order of precedence (Public Law 106-398, section
                          821(a));
                          (i) A firm-fixed price performance-based contract or task order.
                          (ii) A performance-based contract or task order that is not firm-fixed price.
                          (iii) A contract or task order that is not performance-based.
37.602-5 Follow-on        When acquiring services that previously have been provided by contract,
and repetitive            agencies shall rely on the experience gained from the prior contract to
requirements              incorporate performance-based contracting methods to the maximum extent
                          practicable. This will facilitate the use of fixed-price contracts for such
                          requirements for services.




                                                   10

                                                                                Appendix B

           Contracts and Work Assignments Reviewed
                     and Results of Review

                               Office of Air and Radiation
                                                              No. of Work Assignments
                                      Cumulative                     Which Could       With
                                      Obligations                     Be Other     Recurring
 Contract No.        Program           (millions)      Reviewed       Than LOE        Tasks
68-W-00-124       OAP                   $ 32.6              5               5            0
68-W-02-001       OAP                     14.5              5               5            0
68-C-01-155       OTAQ                    11.9              4               0            3
68-C-02-022       OTAQ                      1.0             5               0            0
68-D-01-078       OAQPS                     3.1           49                7           26
68-D-02-079       OAQPS                     1.9           47               24            0
68-D-02-104       OAQPS                     0.7           17                7            4
68-D-03-052       OAQPS/QAP                 3.4             8               0            0
68-W-04-014       OAP                       0.4             4               4            0
  Totals                                 $69.5            144            52           33



                                      Office of Water
                                                              No. of Work Assignments
                                      Cumulative                     Which Could       With
                                      Obligations                     Be Other     Recurring
 Contract No.        Program           (millions)      Reviewed       Than LOE        Tasks
68-C-01-098       OGWDW                 $ 2.8               2               0            0
68-C-02-069       OGWDW                   12.0              5               5            0
68-C-99-263       OST                       9.7           36                0           27
68-C-99-239       OST                       7.0             2               0            2
68-C-02-095       OST                       3.3           28                4           24
  Totals                                 $ 34.8            73             9           53



COMBINED TOTALS                         $ 104.3           217            61           86 





OAP:            Office of Atmospheric Programs
OAQPS:          Office of Air Quality Planning and Standards
OGWDW:          Office of Ground Water and Drinking Water
OST:            Office of Science and Technology
OTAQ:           Office of Transportation and Air Quality




                                                  11
                                                                                                Appendix C

                   Work Assignments Identified that
                   Could Have Been Other Than LOE

                                       Office of Air and Radiation
                                                                                                        No. of Work
  Contract                                       Work Assignment                                        Assignments
68-D-02-079   Collecting emissions data from power plants                                                    1
              Review and summarize reports provided to EPA from States                                       1
              Update software and provide phone assistance to users                                          1
              Develop and present course                                                                     3
              Update EPA's Air Quality Index brochure                                                        1
              Plan the 2004, 2005, 2006 Emissions Inventory and Air Quality Conferences                     10
              Develop a monitoring strategies brochure, Air Effects health brochure                          4
              Note taking at an EPA science meeting                                                          1
              Development of AQI meteorologists educational toolkit                                          2
                                                                                            Sub-total       24


68-D-01-078   Develop GANT Chart using MS Project                                                            1
              Update Web site, respond to calls, produce users manual                                        1
              Make editorial revisions to "Health Effects Notebook" profiles                                 1
              Prepare draft for review then final inventory plan                                             1
              Teach one day "Best Practices Course"                                                          1
              Technical support to update and maintain database                                              1
              Update Microsoft Access database                                                               1
                                                                                            Sub-total        7


68-D-02-104   Develop document and plan for data collection for 2002 National Emissions Inventory            1
              Develop Web site                                                                               1
              Document previously developed software tools                                                   1
              Develop user guide, consolidate several software tools into one                                1
              Update database                                                                                1
              Software maintenance and support                                                               1
              Develop software tool                                                                          1
                                                                                           Sub-total         7


68-W-04-014   Develop training sessions and develop a comic book                                             1
              Provide support for conferences, redesign a Web site and translate into Spanish                1
              Convert updated tool kit to CD-ROM, prepare training guide and present training
              sessions                                                                                       1
              Support for conferences, distribute educational materials                                      1
                                                                                            Sub-total        4




                                                       12

                                                                                                            No. of Work
  Contract                                       Work Assignment                                            Assignments
68-W2-00-001   Conduct meetings with potential Energy Star customers                                             1
               Co-produce training material, conduct training                                                    1
               Edit and publish Energy Star Guide                                                                1
               Identify new industries for Energy Star                                                           1
               Maintain Database iStar                                                                           1
                                                                                                Sub-total        5


68-W0-02-124   Develop public service advertisement, create brochure                                             1
               Develop training strategy, modify Web site                                                        1
               Develop marketing campaign                                                                        1
               Develop new materials, update Web site                                                            1
               Create marketing plan                                                                             1
                                                                                                Sub-total        5

                                                                     Total Office of Air and Radiation          52



                                                Office of Water

68-C-02-095    Prepare training material and provide logistic support for meeting                                1
               Guidelines Support, Litigation Support, and drafting guidelines                                   1
               Provide training materials and set up meetings                                                    1
               Software update                                                                                   1
                                                                                                Sub-total        4


68-C-02-0069   Translate materials into Spanish                                                                  1
               Develop materials for Web cast training sessions, provide training                                1
               Contractor shall produce at least three videos, provide training                                  1
               Convert documents into formats for a Web page on Internet sites                                   1
               Develop materials, provide training                                                               1
                                                                                                Sub-total        5

                                                                                    Total Office of Water        9



                                                                                             TOTAL ALL          61




                                                       13

                                                                                     Appendix D

                                 Agency Response
MEMORANDUM

SUBJECT:       Draft Audit Report: EPA Office of Air and Radiation and Office of Water Can
               Further Limit Use of Level-of-Effort Contracts,
               Assignment Number 2004-1314

FROM:          Luis A. Luna /s/
               Assistant Administrator

TO:            Carl A. Jannetti
               Director for Contract Audits
               Office of Inspector General


       Thank you for the opportunity to comment on the draft report entitled “EPA Office of Air
and Radiation and Office of Water Can Further Limit Use of Level-of-Effort Contracts,” dated
January 3, 2006. As requested, we have prepared a consolidated response which has been
coordinated with the Office of Air and Radiation (OAR) and the Office of Water (OW).

        We generally agree with the findings and recommendations in the draft report, and offer
some specific comments below. While the Agency is definitely moving forward in decreasing
its use of level-of-effort (LOE) contracts, all three Offices recognize that we could and should do
better in this area. Accordingly, we will take your recommendations and suggestions very
seriously, and we will collaboratively work to further reduce EPA’s reliance on LOE contracts in
the future, and increase the use of performance-based services acquisition (PBSA).

General -

We take no exception to the factual accuracy of this draft report. We would also like to identify
and highlight steps we have taken, and are going to take in the near future, to continue to reduce
the Agency’s reliance on LOE contracts. We will address these steps under our comments on
your recommendations.

Recommendations -

RECOMMENDATION 2-1 - That the Assistant Administrator for Air and Radiation and the
Assistant Administrator for Water requires program offices to reduce reliance on cost
reimbursable LOE contracts by making a more concerted effort to identify opportunities for
performance-based acquisitions. The offices should improve acquisition planning by utilizing
contract history and experience to develop Statements of Work that are more specific, definitive,
and detailed.



                                                14

RESPONSE - The OAR and OW agree with this recommendation, and they will work
collaboratively with the Office of Acquisition Management(OAM/OARM) to make this happen.
Both Offices have made progress in increasing the use of PBSA over the past four years. OAR’s
percent of obligations that has been PBSA has increased consistently from FY 2002 to 2005:
7.1%; 11.7%; 14.6%, and 17.0%. Similar figures for OW have been: 7.0%; 20.2%; 23.9%; and
38.1%. One of the major reasons for OW’s success in this area was the 2002 award of four
multiple award contracts with the Office of Wetlands, Oceans and Watersheds. Under these
hybrid contracts, 55% of task orders issued, and 46% of the $22M in obligations to-date ha been
issued under performance-based vehicles. Please note that these contracts and task orders were
not selected as part of your sample during the audit. Both Offices believe a fuller picture of each
Office’s contracting would show that they use a wide variety of contract vehicles, and not
primarily LOE contracts.

Nonetheless, both OAR and OW recognize that more progress can and should be made in this
area, and they will work harder to identify opportunities for performance-based contracting, in
both new acquisition requirements, and future task/delivery orders under already existing
contracts. Please note that, in the latter case, sometimes the administrative costs of converting
new task/delivery orders may outweigh the benefits of converting them. In such cases,
conversions will not be done; nonetheless, we will consider and analyze all such cases.

One valuable tool the two program offices and OAM will be using is training through the Federal
Acquisition Institute (FAI). FAI’s PBSA training course consists of the program and contracting
staff involved in a specific upcoming acquisition requirement meeting with FAI trainers and
contractor PBSA experts to develop performance-based requirements and statements of work.
Both OAR and OW representatives will be taking this training during FY 2006. We believe this
valuable training will greatly help the Agency reach future OMB goals regarding PBSA.

RECOMMENDATION 2-2 - That the Assistant Administrator for Administration and
Resources Management, through the Office of Acquisition Management, instruct contracting
officers to adhere to the FAR guidance and work collaboratively with OAR and OW to: (a)
improve Statements of Work to better define requirements and identify opportunities to limit the
use of LOE contracts; and (b) utilize knowledge gained and lessons learned from current and
planned OAM procurements to assist OAR and OW to develop new and innovative contracts that
provide flexibility and minimize risk, and move the Agency toward its goals for increased small
business participation and performance-based acquisition.

RESPONSE - OAM agrees with this recommendation. As a major step in helping EPA head in
the right direction in this area, OAM issued a new PBSA policy in October 2005, Contracts
Management Manual (CMM) Chapter 37, Section 37.1, “Performance-Based Service
Acquisition.” The policy acknowledges that the FAR establish a preference for performance-
based contracting when acquiring services, and it mandates that all EPA contract requirements
that are eligible for PBSA be awarded as such. Guidance for EPA contract and program offices
is provided in this new CMM Chapter, including how to establish Performance Work
Statements, Statements of Objective, Measurable Performance Standards, Quality Assurance




                                                15

Surveillance Plans, and Incentives. We expect this new policy will enable the Agency to
significantly decrease its reliance on LOT contracts over the next several years.

OAM will also continue to discuss PBSA, increased small business participation, and the use of
new and innovative contracting vehicles with its program customers during acquisition planning
meetings (as prescribed in the CMM, Chapter 7.1.5.1), usually held several times a year, and
customer service meetings with Senior Resource Officials, which are held annually. In addition
to OAM and program representatives, the Agency’s Competition Advocate and Office of Small
and Disadvantaged Business Utilization representatives are also invited to attend these meetings.

Additionally, as mentioned under Recommendation 2-1, above, OAM actively participates in
FAI PBSA team training courses, along with program representatives. Improving Statements of
Work and developing innovative contracts to provide flexibility and minimize risk to the
Government are two of the chief goals of these courses.

RECOMMENDATION 2-3 - That the Assistant Administrator for Administration and
Resources Management, through the Office of Acquisition Management, establish a process to
assure that the best practices and accomplishments of contracting officers in developing new and
innovative contracts to service program offices are shared among all the contracting officers as a
guide and incentive for similar success.

RESPONSE - OAM has a network in place for sharing best contracting practices. This network
includes: monthly Contract Customer Relations Council (CCRC) meetings with program office
representatives; discussing noteworthy accomplishments at weekly OAM staff meetings;
addressing major contracting issues in OAM’s “Buy-Lines” newsletter; posting best practices on
OAM’s intranet web site; and sharing/posting best contracting practices found during reviews of
contracting offices’ compliance with their internal Quality Assurance Plans. For an example of
this network in action, the Agency’s first award-term contract established for the OW has its
Performance Work Statement posted on the Best Practices website for PBSA as an example of
an award-term contract.

       We appreciate the opportunity to provide comments on the draft report. OAM strongly
supports the need to increase PBSA and decrease EPA’s reliance on LOE contracts. If you have
any questions or comments, please contact Judy Davis, Director, Office of Acquisition
Management, at 564-4310, or John Oliver, Policy Training and Oversight Division, at 564-4399.


cc: 	 Bill Wehrum
      Benjamin H. Grumbles
      Judy Davis
      Chuck Gherardini
      Joan Wooley
      Ron Kovach
      John Oliver




                                                16

                                                                         Appendix E

                               Distribution

Office of the Administrator
Acting Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Water
Assistant Administrator, Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Air and Radiation
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Administration and Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Acquisition Management
Acting Inspector General




                                        17

